No. 19-357
IN THE SUPREME COURT OF THE UNITED STATES
CITY OF CHICAGO,
Applicant,
v.
ROBBIN L. FULTON, JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,
Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

APPLICATION FOR EXTENSION OF TIME
TO FILE REPLY BRIEF ON THE MERITS

To the Honorable Brett M. Kavanaugh, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Seventh Circuit:
Pursuant to this Court’s Rule 30.3, the City of Chicago (the “City”) respectfully requests
a 5-day extension of time to and including April 8, 2020, to file its reply brief on the merits in
this case. The Seventh Circuit entered judgment on June 19, 2019. Pet. App. 1a. The City filed
a timely petition for certiorari on September 17, 2019, which this Court granted on December 18,
2019. This Court has jurisdiction under 28 U.S.C. §1254(1). The City filed its brief on the
merits on February 3, 2020. The respondents filed their brief on the merits on March 4, 2020.
Seven amicus briefs in support of respondents were filed on March 10 and March 11, 2020. The
City’s reply brief on the merits is currently due on April 3, 2020. This case is set for oral
argument on April 20, 2020.
1

Due to the various disruptions caused by the work-at-home orders in light of the COVID19 virus and the complications of collaborating remotely, counsel requires additional time to
prepare a reply brief on the merits that will most effectively and efficiently present the issues for
this Court’s consideration. A 5-day extension to and including April 8, 2020 will ensure that the
reply brief is actually received by the Clerk more than 10 days before the date of oral argument,
which is currently set for April 20, 2020, in accordance with this Court’s Rule 25.3. Counsel for
the respondents has indicated that the undersigned may inform the Court that the respondents
consent to the requested extension of time.
For the foregoing reasons, the City respectfully requests that the time for filing its reply
brief on the merits in this case be extended to and including April 8, 2020.
Respectfully submitted.

/s/ Craig Goldblatt
CRAIG GOLDBLATT
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com
March 31, 2020

2

No. 19-357
IN THE SUPREME COURT OF THE UNITED STATES
CITY OF CHICAGO,
Applicant,
v.
ROBBIN L. FULTON, JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,
Respondent.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

APPLICATION FOR EXTENSION OF TIME
TO FILE REPLY BRIEF ON THE MERITS

CERTIFICATE OF SERVICE

I, Craig Goldblatt, a member of the bar of the Court, certify that on March 31, 2020, the
original application was filed with the Court by electronic means and delivered by courier and
that counsel for all parties required to be served have been served copies of the Application for
an Extension of Time to File Reply Brief on the Merits via first-class mail at the addresses
below:

Eugene R. Wedoff
Counsel of Record
144 N. Elmwood Avenue
Oak Park, IL 60302
(312) 285-5849

Catherine Steege
Adam T. Swingle
Jenner & Block LLP
353 N. Clark Street
Chicago, IL 60654
(312) 222-9350

Carl Wedoff
Jenner & Block LLP
919 Third Avenue
New York, NY 10022
(212) 891-1600

John P. Wonais
Michael A. Miller
The Semrad Law Firm LLC
20 S. Clark Street
Chicago, IL 60603
(312) 256-8516
Counsel for Respondents

/s/ Craig Goldblatt
Craig Goldblatt
Counsel for City of Chicago

4

